Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




         State Oversight of
  Residential Facilities For Children




                   JUNE GIBBS BROWN
                    Inspector General

                        MAY 2000
                      OEI-02-98-00570
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York Region prepared this report under the direction of John I. Molnar, Regional
Inspector General and Renee C. Dunn, Regional Inspector General. Principal OEI staff included:

REGION                                                  HEADQUARTERS

Nancy Harrison, Project Leader                          Alan Levine, Program Specialist

Miriam Gareau, Lead Analyst                             Linda Hall, Program Specialist

Lucille Cop

Judy Lin

Jodi Nudelman





      To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                           EXECUTIVE                         SUMMARY

PURPOSE

           To describe States’ licensing process for children’s residential facilities.

BACKGROUND

           Staff at the Administration for Children and Families (ACF) asked the Office of Inspector
           General (OIG) to review State oversight of children’s residential facilities. The ACF’s
           immediate concern is how States license and monitor residential care facilities.

           For the purpose of this study, we define residential care as 24-hour group care of children
           provided by paid staff unrelated to the children. Children who are placed in residential
           care often need services that other settings do not provide, such as specialized counseling.

           To be eligible to receive Federal reimbursement for foster care, a State must place the
           child in a facility that is licensed or approved by the State in which it is situated. States
           are also required to establish and maintain standards for Federally funded residential
           facilities. These standards should include admissions policies, safety, sanitation, and
           protection of civil rights. In the early 1980s, under contract with ACF, the Child Welfare
           League of America (CWLA) wrote a Model State Licensing Law that presents generic
           guidance for the licensing process.

           This inspection is based on information gathered from discussions with ACF’s Children’s
           Bureau staff, a national child welfare expert, and several sources in each of our sample
           State. These sources included State policies, procedures and laws, interviews with State
           licensing specialists and licensing staff, interviews with facility staff, and, in several States,
           observation of a monitoring visit. We selected a purposive sample of nine States
           (California, Florida, Mississippi, New York, Pennsylvania, South Dakota, Tennessee,
           Texas, and Utah).

FINDINGS

States Have Licensing Standards that Focus on Ensuring a Safe Environment

           Licensing standards address the health, protection, and safety of children in
           residential facilities. The standards set a minimum level of care and outline the facility’s
           responsibility regarding the physical plant, staffing, record keeping, care of children,
           restraints, and isolation.


State Oversight of Residential Facilities For Children   1                                   OEI-02-98-00570
           However, there is no universally accepted set of licensing standards. The 15 year old
           Model Licensing Law does not set out specific licensing standards and is not widely
           known. Further, although most States address most standards, there is some variability.
           Of the 34 key standards that we identified, only 8 are addressed by all 9 sample States.

           Furthermore, State standards generally do not address the appropriateness of
           placement or quality of services. State standards generally do not deal with evaluating a
           child’s placement or set criteria for judging the quality of services in a facility. Some
           licensing specialists feel that the licensing process does not ensure quality of care, nor is it
           intended to.

States Follow a Multi-Step Licensing Process that Includes On-site Visits

           The initial licensing process generally consists of a review of written policies followed by
           an on-site inspection of the facility. It is also common for States to conduct subsequent
           on-site visits during a facility’s first year and to offer technical assistance.

States Rarely Revoke Licenses But Use Several Methods to Monitor Facilities

           Almost all sample States report monitoring all facilities on-site annually. Licensing staff
           often discover violations. States impose corrective action plans that outline what a facility
           needs to do to correct the violation. States rarely revoke licenses or deny a renewal.
           Instead, States use other techniques to deal with facility weaknesses, such as stopping a
           facility from accepting new children.

           In addition to monitoring, sample States identify problems through complaints and critical
           incident reports. Usually, specialized staff or licensing staff investigate complaints. All
           nine States require facilities to report critical incidents such as suspected cases of abuse or
           neglect.

Facilities Are Also Monitored By Other Agencies

           In addition to the licensing agency, facilities are commonly monitored by multiple agencies
           that include local fire and health departments and the contracting agency that places
           children.

CONCLUSION

           It appears that the nine States in our sample are meeting Federal requirements to establish
           standards and license facilities. It is important to note, however, that we sought to
           describe licensing processes and did not attempt to identify specific violations of State
           standards or procedures that put children at risk.



State Oversight of Residential Facilities For Children   2                                 OEI-02-98-00570
           State licensing standards address the health, protection, and safety of children. They are
           not intended to ensure the suitability of placement and quality of care. Therefore, placing
           agents should not use licensure as a substitute for a pre-placement visit when placing
           children in residential facilities.

           While we found that most States address most standards, we note some differences in
           standards and licensing procedures. Given this variability, we see an opportunity to
           strengthen State licensing and encourage ACF to take a leadership role. By working with
           States and others ACF can provide training and technical assistance where needed or serve
           as a focal point for information sharing.

           COMMENTS

           We received comments on the draft report from the Administration for Children and
           Families (ACF). (See appendix for the full text of the comments.) The ACF agrees that
           the variability in licensing standards is of concern. They are taking an outcome-based
           approach to monitoring States. We think this outcome-based approach is appropriate, at
           this time. However, we will remain vigilant to potential vulnerabilities in residential care
           for children.




State Oversight of Residential Facilities For Children   3                               OEI-02-98-00570
                               TABLE OF CONTENTS

                                                                                                                  PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS

           Licensing Standards Focus on a Safe Environmental . . . . . . . . . . . . . . . . . . . . . . . . . . .9


           States Follow a Multi-Step Licensing Process. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .13


           States Rarely Revoke Licenses But Monitor Facilities . . . . . . . . . . . . . . . . . . . . . . . . . 15


           Facilities are Monitored by Other Agencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . .21


APPENDIX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .22





State Oversight of Residential Facilities For Children          4                                             OEI-02-98-00570
                                           INTRODUCTION

PURPOSE

           To describe States’ licensing process for children’s residential facilities.

BACKGROUND

           Staff at the Administration for Children and Families (ACF) asked the Office of Inspector
           General (OIG) to review State oversight of children’s residential facilities. The ACF’s
           most immediate concern is how States license and monitor residential care facilities, and in
           particular what a license signifies. The OIG found in the recent inspection, “Interstate
           Compact on the Placement of Children: Implementation”(OEI-02-95-00043) that States
           rely on licensing, not separate on-site reviews of facility services, to determine the
           suitability of residential facilities when they place a child across State lines.

           The OIG’s Office of Audit Services (OAS) is also working in the area of group homes.
           The OAS work will focus on California and will determine whether the required
           protections are being provided to children placed into foster care by the Probation
           Department.

Residential Care

           For the purposes of this study, we define residential care as 24-hour group care of children
           provided by paid staff unrelated to the children. It does not include boarding schools,
           hospitals, or recreational camps. Residential care differs from foster family care, which
           relies on the volunteer services of licensed foster parents for child care in their homes.
           According the Child Welfare League of America (CWLA), an association of public and
           private organizations devoted to child welfare, approximately 17 percent of all out-of-
           home care was provided in residential care facilities in 1995.

           Two types of residential care are group homes and residential treatment centers. Group
           homes generally serve 12 children or less and often include children that are the same
           gender and/or age group. Residential treatment centers usually offer more services to
           children than group homes and have a more troubled population of children. Residential
           treatment centers are generally larger than group homes and may house both boys and
           girls of different ages.

           In the child welfare system, children are placed in residential care for various reasons. For
           example, a child who has suffered from abuse may require intensive treatment and
           supervision that a foster family cannot provide. Some children may be placed into

State Oversight of Residential Facilities For Children   5                                OEI-02-98-00570
           residential care as a last resort because they cannot be controlled in a family environment.
           Children are also placed into these facilities from the mental health and juvenile justices
           systems, and occasionally by parents.

Federal Role in Children’s Residential Care

           Title IV-E. Title IV-E of the Social Security Act establishes an open-ended entitlement
           program that reimburses a portion of States’ foster care maintenance costs for children
           who meet Federal eligibility requirements. Title 42 of the Code of Federal Regulations
           establishes limits for these payments. It specifies that Federal foster care maintenance
           payments for child care institutions (residential facilities) are restricted to the “cost of (and
           the cost of providing) food, clothing, shelter, daily supervision, school supplies, child’s
           personal incidentals, liability insurance of child, reasonable travel to the child’s home for
           visitation,” and administration/operation costs associated with above [42 CFR 675(4)].

           The Act defines child-care institutions as either a public child-care institution that
           accommodates no more than 25 children or a private child-care institution that is not
           limited in the number of children it can accommodate. In addition, an institution must “be
           licensed by the State in which it is situated or has been approved, by the agency of such
           State responsible for licensing or approval of institutions of this type, as meeting the
           standards established for such licensing, but the term shall not include detention facilities,
           forestry camps, training schools, or any other facility operated primarily for the detention
           of children who are determined to be delinquent.”

           Title IV- E assigns States the responsibility to establish and maintain standards for foster
           family homes and child care institutions that receive funding under it. These standards
           should include admissions policies, safety, sanitation, and protection of civil rights. States
           must arrange for a periodic and independent audit of the programs that receive Title IV-E.
           These audits must be conducted at least every three years. In the early 1980s, under
           contract with ACF, the CWLA wrote a Model State Licensing Law for the placement of
           children which addresses, among other things, residential facilities. The Model Law
           presents generic guidance for the licensing process but does not provide specific
           standards.

           Adoption Assistance and Child Welfare Act of 1980. The passage of Public Law 96-
           272, the Adoption Assistance and Child Welfare Act of 1980, and subsequent regulations
           promulgated, requires the assessment of the appropriateness of placement and the
           appropriateness of services provided for children under the responsibility of the child
           welfare agency. To comply with these requirements State child welfare agencies can
           develop policies and/or contracting guidelines that address quality services and the
           appropriateness of the child’s placement.




State Oversight of Residential Facilities For Children   6                                  OEI-02-98-00570
           Adoption and Safe Families Act. The Adoption and Safe Families Act (ASFA)
           amended Section 471(a) of the Social Security Act by requiring that States develop and
           implement, no later than January 1, 1999, “standards to ensure that children in foster care
           placements in public or private agencies are provided quality services that protect the
           safety and health of the children.” The ACF staff believes that although the standards
           required by ASFA do not specifically address licensing of residential facilities, the
           requirement provides a means of addressing the quality of services provided to children in
           foster care and an opportunity for the Federal government to examine State practice in this
           area.


METHODOLOGY

           This inspection is based on information gathered from discussions with ACF Children’s
           Bureau staff, a national child welfare expert, and four separate sources in each of our nine
           sample States. First, we analyzed the State policies, procedures, and laws regarding the
           licensing and monitoring of residential facilities for children. Second, we conducted
           interviews with a State licensing specialist. Third, we interviewed a member of the
           licensing staff. Fourth, we interviewed the directors of two randomly selected facilities.
           Finally, we accompanied a member of the licensing staff on a monitoring visit in three
           States.

           We selected these sources for their different perspectives on the licensing process. In our
           analysis, we paid special attention to consensus within and among the groups. We used
           consensus as a cross check to confirm our findings. For example, we analyzed State
           licensing specialist viewpoints and we compared their comments with those we received
           from licensing and facility staff within the same State.

           We selected a purposive sample of nine States (California, Florida, Mississippi, New
           York, Pennsylvania, South Dakota, Tennessee, Texas, Utah.) These States include a
           geographic mix of large and small States. These nine States represent 40 percent of the
           national population under age 18 in 1997. The CWLA estimates these nine States also
           represent over 45 percent of the national capacity of residential facilities.

           State Standards Review. We first collected policies, procedures and laws pertaining to
           the licensing and monitoring of residential facilities from four States. These four States
           were identified by a child welfare expert as having model standards. The four were not in
           our sample. We then developed a review instrument based on the common licensing
           practices found in the standards from the four States. Using the instrument, we compared
           the policies, procedures, and laws collected from our nine sample States to the practices of
           the model States. This comparison can be found in Table A in the report.




State Oversight of Residential Facilities For Children   7                              OEI-02-98-00570
           Interviews. In each of the nine sample States we interviewed a licensing specialist who
           was either the supervisor of the licensing staff or a licensing policy specialist. We
           discussed statewide licensing practices. We also interviewed a licensing staff member
           selected by each State. We discussed licensing practice and, in particular, his or her own
           experiences. In addition, we interviewed the directors of two randomly selected
           residential facilities in each of the nine States. We discussed their experiences with the
           licensing process, with emphasis on their last monitoring visit.

           Site Visits. In three States (California, Pennsylvania and New York) we accompanied a
           member of the licensing staff on a monitoring visit of a residential facility.

           Limitations. The sample used in this study is purposive. Therefore, the findings of this
           study cannot be generalized to the universe of States and facilities.

           We are able to assess whether or not the States in our sample are following their policies
           and procedures. However, due to the constraints of our methodology, we cannot identify
           specific occurrences of procedures violation or low quality of care.

           This inspection was conducted in accordance with the Quality Standards for Inspections
           issued by the President’s Council on Integrity and Efficiency.




State Oversight of Residential Facilities For Children   8                             OEI-02-98-00570
                                                         FINDINGS

States Have Licensing Standards that Focus on Ensuring a Safe
Environment

Licensing Standards Address the Health, Protection, and Safety of Children in
Residential Facilities

           The standards are rules that set the minimum level of care and outline facilities’
           responsibilities regarding the physical plant, staffing, record keeping, care of children, and
           restraints and isolation. Table A shows key standards of the nine sample States.

           Physical Plant. Our analysis of the standards from each of the nine sample States shows
           that rules regarding the physical plant (the building and grounds of the facility) focus
           primarily on preventing safety hazards and on providing a comfortable and appropriate
           living environment. For example, all sample States require facilities to meet applicable
           building and fire safety standards. All States also have additional building requirements
           such as minimum square footage of bedrooms, and the provision for recreational space.
           Many States also mandate safety procedures such as requiring that all toxic chemicals and
           medications be stored in a locked cabinet.

           Staffing. All States’ standards have rules about staffing. Generally, these rules focus on
           staff qualifications, training, background checks, and staff-to-child ratios. For example, all
           States mandate that facilities maintain certain staff-to-child ratios for the safety of the
           children. The most common ratio for school age children is one staff member to eight
           children during waking hours. Five States also specify different ratios for sleeping hours.
           The most common ratio is 1 staff to 12 children.

           Background checks are common. Six States require both a criminal and child abuse
           background check for the program director and the direct child care staff. Two other
           States require one of these checks. Only one of our States did not require either
           background check.

           States often require facility staff to have specific education and training. For example,
           eight of the States require the facility director to have at least a bachelor’s degree and
           related work experience. Four States require that direct care staff have at least a high
           school diploma. In addition, most States require that employees attend an orientation and
           have a minimum amount of training each year. Three States require health related
           training, such as first aid and cardio pulmonary resuscitation.




State Oversight of Residential Facilities For Children       9                            OEI-02-98-00570
                       Table A: Common Licensing Standards in Sample States

x = Standard addressed by State
                                                                           States
      Licensing Standards                                1   2     3      4     5     6     7     8      9      Total

      Physical Plant
       Applicable building inspection                    x   x     x      x     x     x     x     x      x        9

       Applicable fire standards                         x   x     x      x     x     x     x     x      x        9

       Specific building requirements:                   x   x     x      x     x     x     x     x      x        9
        sq. footage of bedrooms                                    x      x     x     x     x     x      x        7
        location of staff rooms                          x   x     x                              x      x        5
        recreational space                               x   x     x      x     x     x                           7

       Specific safety procedures:                       x   x     x      x     x     x     x     x      x        9
        all toxic chemicals secured                      x   x                  x           x            x        5
        all medications locked                           x   x     x      x     x     x     x     x      x        9

      Staffing
       Staff-to-child ratio                              x   x     x      x     x     x     x     x      x        9

       Staff-to-child ratio sleeping hours                   x     x            x     x           x               5
                                                                                            1
       Criminal background checks:                       x   x     x            x     x           x      x        7
          Facility director                              x   x     x            x     x           x      x        7
          Direct child care staff                        x   x     x            x     x           x               6
          Volunteers                                     x   x                        x           x               4

       Child abuse background checks:                    x         x      x     x     x           x      x        7
          Facility director                              x         x      x     x     x           x      x        7
          Direct child care staff                        x         x      x     x     x           x               6
          Volunteers                                                      x           x           x               3

      Director needs Bachelor’s and experience           x   x     x      x     x     x     x     x               8
                                                                                2
      Child care staff must have HS diploma                        x      x                 x     x               4

       New staff orientation                             x   x     x      x     x           x     x      x        8

      Training hours required                            x   x                  x     x     x     x               6

       First aid training required                                                    x           x      x        3




           1
               Although State 7 standards require child abuse checks on staff through a central child abuse registry,
the                State does not have a child abuse registry, so these checks are not done.

           2
               State 5 requires that 50 percent of the direct child care staff have 2 years of college or work experience,
                the other 50 percent do not have these requirements.

State Oversight of Residential Facilities For Children       10                                         OEI-02-98-00570
                                                                           States
    Licensing Standards                                  1   2      3      4      5    6      7     8    9      Total

    Record Keeping
      Treatment plan                                     x   x      x      x      x    x      x     x    x        9

      Progress reports                                   x   x      x      x      x    x                 x        7

      Medication logs                                        x      x             x    x      x     x    x        7

    Care of Children
       Nutritional requirements                          x   x      x      x      x    x      x     x    x        9

       Recreational program                              x   x      x      x      x           x          x        7

       Medical care                                      x   x      x      x      x    x      x     x    x        9

       Dental care                                           x      x      x      x           x     x             6

       Educational requirements                          x   x      x      x      x           x     x    x        8

       Child’s rights                                    x   x      x      x      x           x     x    x        8

    Restraints and Isolation
      State sets standards                               x   x                    x           n/a   x    x        5

      Facilities to develop standards                                      x           x      n/a                 2

      Require monitoring of restraints                   x   x                    x           n/a   x             4

      Limit time of restraint                            x                        x           n/a   x             3

     Used only under specific circumstances              x   x             x      x           n/a   x    x        6

      Prohibits restraints                                                                    x                   1

      Prohibits isolation                                           x                                    x        2

      Set standards on use of isolation                  x   x     n/a            x    x      x     x   n/a       6

      Prohibit use of locked room                            x     n/a            x           x         n/a       3

      Limit length of isolation                          x   x     n/a            x    x      x         n/a       5
                                                             3
      Require isolation is monitored                     x         n/a            x    x      x         n/a       4

     Document each isolation                             x         n/a            x    x     x      x    n/a       5
                                                                               Source: OEI State standards review, 1999




           3
               State 2 requires that isolated children be within hearing distance of staff.

State Oversight of Residential Facilities For Children       11                                         OEI-02-98-00570
           Record Keeping. State standards also require facilities to maintain specific records. In
           fact, all sample States require that facilities have a treatment plan for each child. Seven
           States also require that progress reports be written for each child on a periodic basis. In
           the majority of the States, facilities must keep a log of the administration of all
           medications. Other types of required record keeping includes children’s medical exam
           reports and incident reports.

           Care of Children. All States set rules about the care of children. Generally, these rules
           are specific and address nutrition, recreation, medical and dental care, and education.
           Eight of the nine States’ standards protect children’s rights, in varying ways, such as their
           right to have money, belongings, phone calls, and mail. The remaining State’s standards
           do not address these issues.

           Restraints and Isolation. According to State and licensing staff, one State prohibits the
           use of restraints and one State does not have policies on their use. The other seven States
           either address the use of restraints in their standards or require facilities to develop their
           own policies. Several States require that restrained children be monitored every 10 to 15
           minutes. Some States limit the time of restraints. Typically, the restraint must only be
           used to protect a child from injury to herself or others.

.	         Six States regulate the use of isolation. Two States prohibit its use and another does not
           address isolation in its policies. Of the six States that regulate, three prohibit the use of a
           locked room for isolation. Two of the States that allow locked rooms require the isolation
           be documented and approved or discussed with the child’s placing agency (or parent).
           Most States limit the time a child can be isolated. The limits range from 1 to 12 hours.

However, There is No Universally Accepted Set of Licensing Standards

           As mentioned in the background of this report, the Model Licensing Law was written by
           CWLA, under contract with ACF, over 15 years ago. Although it provides guidance to
           States about licensing procedures, it does not set out specific licensing standards.
           Furthermore, this model law is not widely known.

           Although most States address most standards, as Table A shows, there is some variability.
           Of the 34 key standards that we identified, only 8 are addressed by all 9 sample States.
           For instance, two States do not require child abuse background checks of facility staff.
           Only three States require facility staff to have first aid training. Also, not all States
           mandate progress reports and medication logs. The most variability among States is in the
           area of restraints and isolation, where no standard has more than six States addressing it.




State Oversight of Residential Facilities For Children   12                               OEI-02-98-00570
Furthermore, State Standards Generally Do Not Address the Appropriateness of
Placement or the Quality of Services

           State standards generally do not require licensing staff to evaluate the appropriateness of a
           child’s placement into a facility. Licensing staff members note that this responsibility rests
           with the child’s placing agency. This distinction is especially important in interstate cases
           when a child from one State is being placed in a residential facility in another States. A
           previous Office of Inspector General inspection (OEI-02-95-00043) found that States
           generally rely on licensing, not separate on-site reviews of facility services, to determine
           the suitability of residential facilities when they place a child across State lines.

           Typically State licensing standards do not set criteria for judging the quality of services in
           a facility. For example, State standards require that facilities develop a treatment plan for
           each child but the standards do not offer details on what the plans should include. Most of
           the State licensing specialists we interviewed feel that the licensing process does not
           ensure quality of care, nor is it intended to. As one specialist explains, “the legislation
           defined our role as health and safety, when it comes to program quality it is a buyer
           beware situation.”


States Follow a Multi-Step Licensing Process that Includes On-site
Visits

           The licensing staff are typically employed by the State department responsible for child
           welfare or social services. Five of the sample States have a separate licensing division
           within that department. The other States have licensing staff in the department but not in a
           separate office. The licensing staff in all of the States are required to have at least a
           bachelor’s degree and some work experience, but only two States offer comprehensive
           training for new staff. The other States rely on on-the-job or in-house training.

           The initial licensing process generally consists of a paper review followed by an on-site
           inspection. Further, it is not uncommon for States to conduct subsequent on-site visits
           during a facility’s first year or to offer technical assistance. Table B presents the common
           licensing practices of the nine sample States.

           Review of Policies and Procedures. The first step in the licensing process is a paper
           review. New facilities in all States submit copies of their policies and procedures. In most
           sample States, these documents include personnel policies, such as job descriptions and
           training plans, and financial information, such as a budget and proof of sufficient funds to
           operate for several months. Some States require a statement of need or a letter of intent
           to place children from a local county or placing entity.



State Oversight of Residential Facilities For Children   13                              OEI-02-98-00570
           Review of Program Description. During the application process, eight States require
           facilities to submit a written program description. Typically, it describes the services the
           facility will offer and how they plan to provide these services. These program descriptions
           are generally reviewed by the licensing staff. The ninth State reports that although this
           information is not required, facilities usually provide it.

           On-Site Inspection. All sample States conduct an on-site inspection of the facility before
           an initial license is issued. During this visit, licensing staff verify that the physical plant of
           the facility is in compliance with standards and has no apparent safety hazards. A more
           comprehensive inspection cannot be done at this point because the facility is not yet caring
           for any children.

           Technical Assistance. Eight States report offering some type of technical assistance to
           facilities during the application process. The technical assistance usually is a meeting
           between the licensing staff and the facility director or board of directors to discuss the
           facility’s strengths and weaknesses, how the facility can improve its policies, and what the
           facility should do in order to be in compliance with standards. The ninth State offers no
           technical assistance.

           Additional On-Site Inspections During the First Year of Operation. On-site
           inspections for new facilities are common. In six of the sample States new facilities are
           subject to a comprehensive on-site inspection during the first year. These visits generally
           include reviewing records, inspecting the physical plant and, in two States, conducting
           interviews with staff or children. In one other State’s new facilities are visited during the
           first year, but a comprehensive inspection is not conducted. The remaining two States do
           not conduct additional monitoring during a facility’s first year.

           Most of the sample States (7) issue a provisional license when a facility first opens and one
           more State has the option to issue provisional licenses. The provisional license is
           temporary and gives new facilities the right to care for children. States use these licenses
           because a facility cannot prove compliance with all licensing standards before it cares for
           any children. Provisional licenses are generally valid for three to six months and involve a
           higher degree of monitoring.

           Six of our sample States renew licenses annually. The other three States have perpetual
           licenses that do not need renewal.




State Oversight of Residential Facilities For Children   14                                  OEI-02-98-00570
                 Table B: Common Licensing Practices of Nine Sample States

                                                                              States
            Licensing Practice                           1        2   3   4    5       6   7     8      9

             Review of policies and procedures           x        x   x   x    x       x   x     x      x

             Review of program description               x            x   x    x       x   x     x      x

             On-site inspection                          x        x   x   x    x       x   x     x      x

             Technical Assistance                        x        x   x   x    x       x         x      x

             Provisional licenses                        x        x   x        x       x   x     x      x

             Additional inspection                       x        x            x           x     x      x
                                                                               Source: OEI survey, 1999



States Rarely Revoke Licenses But Use Several Methods to Monitor
Facilities

Most States Monitor Facilities Yearly

           All but one sample State report monitoring all facilities, on-site, at least once a year. The
           remaining State reports monitoring facilities on-site, but could not report how often it
           occurs. All facilities agree that they are monitored by licensing staff on-site at least once a
           year. A monitoring visit can be either announced or unannounced. Only two States
           conduct unannounced visits.

           Most States use the same general methods to monitor: an inspection of the physical plant,
           a review of records, and interviews with children or staff. These methods do not include a
           review of the appropriateness or suitability of the placement of the children in the facility.
           Licensing staff members note that it is the responsibility of the agency that places the child.

           Inspection of Physical Plant. Eight of the nine sample States report that the annual
           monitoring includes an inspection of the physical plant. Typically, licensing staff members
           walk through the facility looking for safety hazards, the overall cleanliness and
           maintenance, and compliance with specific standards. For example, licensing staff
           members may check to see if the emergency escape routes and phone numbers are posted.
           They often verify that the facility has enough food and stores it properly and that all toxic
           chemicals, including dishwashing soap, are kept in a locked cabinet. The remaining State
           reports only inspecting the physical plant when he has concerns, otherwise he depends on
           the local fire and health inspections.


State Oversight of Residential Facilities For Children       15                                OEI-02-98-00570
           Record Reviews. Eight sample States report conducting record reviews as a part of the
           annual monitoring process. In the ninth State reviews may not occur as regularly.
           Further, almost all of the facility directors report that licensing staff reviewed records
           during their last monitoring visit.

           A variety of records are reviewed in each State. In a child’s record, licensing staff
           generally look at the treatment plan, progress reports, and medical records. In a personnel
           record, licensing staff generally look at training and background checks. In addition,
           licensing staff in the majority of States review menus and medication logs.

           All licensing staff members agree that while they are reviewing records, they are looking
           for compliance with standards. Eight also report looking, at least sometimes, at the level
           of detail in the record. Five even report that they assess quality of care during record
           reviews.

           Interviews with Staff and Children. In all nine States, the licensing staff member or the
           licensing specialist report that they interview facility staff and children during monitoring
           visits. However, facilities in two of the sample States report that these interviews did not
           occur during their last monitoring visit.

           The licensing staff members say that these interviews give them an opportunity to find out
           what is actually happening in the facilities on a day-to-day basis. Topics that they discuss
           with children may include the food, treatment goals, unmet needs, or the child’s
           interactions with staff (especially disciplinary issues). Most States interview the direct
           care staff and several States also interview the director of the facility.

           Many licensing staff members believe that interviewing is the most important part of the
           monitoring process. One member says that interviewing shows how the agency is actually
           doing, rather than just looking at compliance with health and safety standards. Another
           believes that interviewing allows him to find out if management’s philosophy follows
           through to the front line staff.

States Rarely Revoke Licenses or Deny a Renewal

           States rarely use license revocation to deal with facility weaknesses. (See Table C.) Two
           States say they have never revoked a facility license. Instead, States use other techniques.
           The ACF staff point out that this practice is consistent with commentary in the Model
           Licensing Law which says that “children should not be subjected to the trauma that closing
           a residence would create.” Some States stop new children from being placed in the
           facility. Other States have the legal authority to impose monetary penalties on a facility
           that violates licensing standards.




State Oversight of Residential Facilities For Children   16                              OEI-02-98-00570
                          Table C: Number of Facilities in Sample States: 1998

                                                                                   States
                 Status                                   1      2      3    4        5     6     7      8       9

                 Licensed                                1,611   259    51   663     682    21   212   3844     86

                 New license applications                215     32     3    32       _5    0    11     74       7

                 Issued new license                      198     32     3    27       71    0    11      _       3

                 Issued renewal                          N/A     227    49    7       _     21   201    N/A     86

                 Denied renewal                          N/A      0     0     0       _     0     0      1       0

                 License revoked                          35      1     0     0       _     0     0      3      3
                                                                                            Source: OEI survey, 1999

           Only one sample State reports denying a license renewal during 1998. Typically, a
           violation discovered during a renewal monitoring visit does not cause the license to be
           denied, instead a corrective action plan or other steps are taken to correct the problem.

States Use Corrective Action Plans to Address Violations

           It is common for a licensing staff member to discover violations during annual monitoring.
           In most of the sample States, licensing staff impose and follow-up on corrective action
           plans. This practice is discussed in the commentary section of the Model Licensing Law.
           It states, in part, that “just as the Department’s efforts to monitor and offer consultation
           are intended to help programs stay in operation and generate opportunities to raise
           standards, probation is also intended as an enabling process.”

           Licensing staff members report that the most common type of violations are safety hazards
           and problems with the facility records. Common safety hazards range from unlocked toxic
           substances, inappropriate staff-to-child ratios, and fire code violations to torn carpets and
           exposed nails. Problems with the facility records generally involve missing
           documentation, such as an immunization record or a doctor’s report from a child’s
           medical exam. Staff training requirements not being met is also a common violation.

           Of the 18 facilities interviewed, 8 (in 6 States) had minor violations during their last
           monitoring visit. These violations include: building maintenance, problems with



           4
               State data are for fiscal year 1997 and include shelters, halfway houses and therapeutic camps (none of
                which are included in our definition of residential facility).
           5
               Data not available

State Oversight of Residential Facilities For Children                 17                                     OEI-02-98-00570
           documentation, violations of the fire codes, missing medication, and incomplete training
           and immunization records.

           The majority of States impose corrective action plans on facilities that are not in
           compliance with licensing standards. A corrective action plan is generally an agreement
           between the licensing office and the facility. The plan outlines what the facility needs to
           do and when it must be complete in order to be in compliance with licensing standards.

           Two States use corrective action plans more conservatively. For example, one State uses
           the plan after a facility shows a pattern of violations or a systematic problem. In the other
           State the licensing staff must discuss the violations with the facility and send warning
           letters before a corrective action plan is enacted.

           States report following-up on violations by visiting or calling the facility or reviewing
           documentation. Licensing staff in only three States report consistently going on-site to
           follow-up on violations. Other States report that they sometimes follow-up on violations
           through telephone conversations or in writing, instead of going on-site. Two States report
           no specific follow-up techniques.

           Facilities confirm these methods of follow-up. Of the eight facilities that had corrective
           action plans imposed at their last monitoring visit, half had on-site follow-up. All four of
           these facilities had violations involving the physical plant. Violations in the other four
           facilities involved missing or incomplete records. In these cases the State followed up on
           the corrective action plans with phone calls and letters.

States Investigate Complaints and Critical Incidents

           In addition to monitoring, States have two main ways to identify problems in facilities:
           complaints and critical incident reports. Critical incidents include the abuse, neglect,
           death, or serious injury of a child. Facilities are required to report such incidents to the
           State licensing agency. States also have procedures to receive and investigate complaints.
           (See Table D.)

           Reporting. All States are prepared to handle complaints. Licensing staff members say
           that complaints are usually made by parents, facility staff, or other concerned parties
           calling the licensing office. In four States, complaints can also be made by calling the
           State child abuse hotline. States report that the two most common complaints are
           suspected child abuse and violations of licensing standards, such as inadequate food or
           inappropriate discipline or treatment of children. Other types of complaints include poor
           working conditions for the staff and parents being denied access to their children.




State Oversight of Residential Facilities For Children   18                              OEI-02-98-00570
           All nine States require facilities to report suspected incidents of abuse or neglect.
           However, only six States require every death or serious injury to be reported to the
           licensing office. The other States require deaths to be reported to the proper local
           authorities.

         Table D: State Practices for Handling Complaints and Critical Incidents

                                                                                   States
            Practice                                               1   2   3   4     5      6   7   8     9

             State abuse hotline                                       x   x   x     x

             Facilities must report child’s death to lic. office   x   x   x   x                    x     x

             Licensing staff works with special investigators      x   x   x   x    x    x              x
                                                                               Source: OEI survey, 1999

           Investigation. Investigation of complaints varies by type of complaint. State licensing
           staff investigate complaints that are not abuse and neglect. Specialized staff, such as child
           protective services staff, investigate abuse and neglect complaints. In seven States the
           licensing staff members accompany the specialized staff. States report that the
           investigation generally involves interviewing the victim, witnesses, staff, and accused.
           Investigators may also review facility records and logs, and sometimes, medical
           documentation.

           Most State licensing staff members report that they investigate the death of a child. As
           they do with abuse and neglect investigations, the licensing staff usually work with another
           specialized unit. These units include the State Department of Internal Affairs, county
           investigators, child protection unit and State Attorney General. Only one State reports
           that the licensing staff does not coordinate their investigation with any other agency.


Facilities are also Monitored by Other Agencies

           It is common for residential facilities to be monitored by multiple agencies. These
           agencies include State departments, local authorities, and contracting agencies. Of the 18
           facilities we interviewed, 16 report that they have been monitored by other agencies in
           addition to the licensing agency.

           Facilities in all of the sample States are subject to additional monitoring, such as fire and
           health inspections. Other State departments that monitor facilities include mental health,
           corrections, education, agriculture, and Medicaid.




State Oversight of Residential Facilities For Children        19                                OEI-02-98-00570
           The licensing staff in six States report that facilities are also monitored by their contracting
           agency. These contracting agencies are usually the county or district offices of the State
           responsible for placing dependent children into foster care. These agencies often have a
           contract for some or all of the beds in a residential facility. The contract will outline the
           services that the facility agrees to provide to the children. The contacting agency monitors
           this contract to ensure the facility is providing the services. According to ACF Children’s
           Bureau staff, many of the State child welfare agencies that contract with licensed facilities
           for placement of children using Title IV-E funds have additional contracting requirements
           that are monitored in a variety of ways. Quality and intensity of services issues are
           generally addressed by these requirements.

           Three facilities also have voluntary accreditation and are monitored by the Council on
           Accreditation (COA). The facilities report that the COA monitoring assesses the quality
           of the services they provide to children.




State Oversight of Residential Facilities For Children   20                                OEI-02-98-00570
                                                CONCLUSION

           It appears that the nine States in our sample are meeting Federal requirements to establish
           standards and license facilities. It is important to note, however, that we sought to
           describe licensing processes and did not attempt to identify specific violations of State
           standards or procedures that put children at risk.

           State licensing standards address the health, protection, and safety of children. They are
           not intended to ensure the suitability of placement and quality of care. Therefore, placing
           agents should not use licensure as a substitute for a pre-placement visit when placing
           children in residential facilities.

           While we found that most States address most standards, we note some differences in
           standards and licensing procedures. Given this variability, we see an opportunity to
           strengthen State licensing and encourage ACF to take a leadership role. By working with
           States and others ACF can provide training and technical assistance where needed or serve
           as a focal point for information sharing.

           COMMENTS

           We received comments on the draft report from the Administration for Children and
           Families (ACF). (See appendix for the full text of the comments.) The ACF agrees that
           the variability in licensing standards is of concern. They are taking an outcome-based
           approach to monitoring States. We think this outcome-based approach is appropriate, at
           this time. However, we will remain vigilant to potential vulnerabilities in residential care
           for children.




State Oversight of Residential Facilities For Children   21                              OEI-02-98-00570
                                                         APPENDIX


                                                          COMMENTS





State Oversight of Residential Facilities For Children       22       OEI-02-98-00570
State Oversight of Residential Facilities For Children   23   OEI-02-98-00570
State Oversight of Residential Facilities For Children   24   OEI-02-98-00570
State Oversight of Residential Facilities For Children   25   OEI-02-98-00570
State Oversight of Residential Facilities For Children   26   OEI-02-98-00570
